                       UNITED STATES DEPARTMENT OP EDUCATION




                                       NOV 1 2 2003

MEMORANDUM

TO:            William J. Leidinger
               Assistant Secretary for Management and Chief Information Officer
               Office of Management


FROM:          Helen Lew    ffdb W
               Assistant Inspector General for Audit

SUBJECT:       Final Audit Report
               Audit of the Accuracy and Completeness of Personnel Data
               Control Number ED-OIGIA19-C0005

Attached is our subject final report that covers the results of our audit of the accuracy and
completeness of personnel data. We received your comments generally concurring with the
findings and recommendations in our draft audit report. Please provide the Supervisor, Post
Audit Group, Office of the Chief Financial Officer, and the Office of Inspector General with
quarterly status reports on promised corrective actions until all such actions have been completed
or continued follow-up is unnecessary.

In accordance with the Freedom of Information Act (5 U.S.C. § 552) reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us in the review . Should you have any questions
concerning this report, please call Michele Weaver-Dugan at (202) 863-9526.


Attachment
 Audit of the Accuracy and Completeness of Personnel Data 




                                 FINAL AUDIT REPORT 





                                            ED-OIG/A19-C0005
                                              November 2003


Our mission is to promote the efficiency,                      U.S. Department of Education
effectiveness, and integrity of the                            Office of Inspector General
Department’s programs and operations.                          Operations Internal Audit Team
                                                               Washington, DC
Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
     Determinations of corrective action to be taken will be made by the appropriate
                           Department of Education officials.


In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the
        extent information contained therein is not subject to exemptions in the Act.
                                    TABLE OF CONTENTS 



                                                                                                            Page


EXECUTIVE SUMMARY ..................................................................................... 1 


BACKGROUND ..................................................................................................... 3 


AUDIT RESULTS................................................................................................... 4 


           Finding No. 1 – Personnel Database Information Was Not Always 

               Accurate or Complete.......................................................................... 4 


                 Recommendations ............................................................................... 6 


           Finding No. 2 – Personnel Database Information Was Not Always 

               Supported By Personnel Records........................................................ 7 


                 Recommendations ............................................................................... 9 


        Finding No. 3 – Controls Over Sensitive Data Needed Improvement........ 11 


                 Recommendations ............................................................................. 13 


OBJECTIVES, SCOPE, AND METHODOLOGY............................................... 14 


STATEMENT ON MANAGEMENT CONTROLS............................................. 16 


ATTACHMENTS: 

Attachment 1 – Results of Employee Data Confirmation Survey 

Attachment 2 – Sources of Data Fields Available for Employee Review 

Attachment 3 – Comparison of Database to Personnel File Documentation 

Attachment 4 – FPPS User Account Review by Organization 

Attachment 5 – Summary of Data Fields Reviewed 

Attachment 6 – Department’s Response to Draft Audit Report

                             EXECUTIVE SUMMARY 


The responsibilities of the Department of Education’s (Department) Human Resources Services
(HRS) include establishing and maintaining staff resource information and related processing
systems. The Department utilizes the Federal Personnel/Payroll System (FPPS) to perform these
functions. Information from FPPS is also provided to the Office of Personnel Management’s
Central Personnel Data File. This information is used to generate statistics on federal employees,
to monitor agency compliance with government-wide policies, and to make decisions on federal
personnel policy.
The objectives of our audit were to: (1) assess the accuracy and completeness of selected
information in the Department’s personnel database, and (2) evaluate how sensitive personnel
data is safeguarded.
Overall, we found opportunities exist to improve the quality of personnel records and the
controls over sensitive data. Our audit found that FPPS database information was not always
accurate or complete, information contained in the FPPS database was not always supported by
personnel records, and controls over sensitive data needed improvement. As a result, managers
and HRS staff did not always have appropriate data upon which to base decisions, employee
personnel and performance files were not always complete, FPPS users were not informed of
their responsibilities with respect to use of the system, and some users had inappropriate access
to sensitive information.

To correct the identified weaknesses, we recommend that the Department:

• 	 Develop and implement a process to improve the accuracy of FPPS data through employee
    review and confirmation.
• 	 Monitor FPPS data for completeness and take corrective action where appropriate to identify
    and complete missing data.
• 	 Reinforce the requirements for and importance of recording and updating FPPS data to HRS
    and Executive Office staff responsible for this task. Provide additional training as needed.
• 	 Develop and implement periodic quality assurance reviews to compare FPPS data with
    personnel record documentation to ensure all data is accurately recorded/updated and records
    are complete.
• 	 Develop a tracking mechanism to ensure that all ratings are provided timely by Executive
    Offices and filed in Employee Performance Files.
• 	 Develop and implement rules of behavior for FPPS users that include the use of a signature
    page to acknowledge receipt and understanding of responsibilities.
• 	 Develop FPPS user account monitoring procedures to ensure that Executive Offices
    periodically review and confirm the need for user accounts within their organization.

We discussed our findings and recommendations with HRS as they were identified. HRS staff
developed and implemented corrective actions for many issues during the course of this audit.


ED-OIG/A19-C0005                             	                                      Page 1
In the Department’s written response to the draft audit report, the Office of Management (OM)
stated that it generally concurred with our audit findings and the majority of the
recommendations. OM disagreed with one recommendation. As OM’s stated corrective actions
to other recommendations in the report will adequately address our concerns, this
recommendation was removed from the final audit report.

In its response, OM stated that at times our report overstated the impact and importance of some
of the data errors. We do not agree with this statement. Our report listed the data elements that
were found to be inaccurate and the data users that may be affected. While we agree that
inaccuracies in some data elements have more impact than others, we did not make this
distinction in the audit report. Impact statements in the audit report referred to data inaccuracies
in general, not to specific data elements.

We summarized the Department’s response and provided our comments to the response, where
applicable, at the end of each respective finding. The full text of the Department’s response is
included as Attachment 6 to this report.




ED-OIG/A19-C0005                                                                      Page 2
                                    BACKGROUND 



The Department of Education’s (Department) Human Resources Services (HRS), within the
Office of Management, provides leadership and direction in the formulation and implementation
of policies and programs that promote efficient and effective personnel management. HRS
provides the Secretary, Deputy Secretary, and other executive level managers, with human
resources advice and technical services that further the goals and objectives of the Department.
HRS establishes and maintains staff resource information and processing systems that reflect
resource utilization needs for key officials within the Department. The Department utilizes the
Federal Personnel/Payroll System (FPPS) to perform these functions.

The Department of Interior’s National Business Center operates FPPS for the Department of
Education and numerous other agencies. FPPS has different modules that allow Department
users to perform functions such as time and attendance or personnel transaction processing.
HRS uses FPPS to maintain electronic personnel records for Department employees.

Employee records within FPPS consist of data fields such as name, Social Security Number,
position, and pay plan. Select information contained within the database is periodically
submitted to the Office of Personnel Management (OPM) for use in the Central Personnel Data
File (CPDF). Decision makers ultimately use this information to obtain statistics on federal
employees, to monitor agency compliance with government-wide policies, and to make decisions
on federal personnel policy.




ED-OIG/A19-C0005                                                                   Page 3
                                             AUDIT RESULTS 


Overall, we found opportunities exist to improve the quality of personnel information and the
controls over sensitive data. Our audit found that: (1) FPPS database information was not always
accurate or complete, (2) information contained in the FPPS database was not always supported
by personnel records, and (3) controls over sensitive data needed improvement. As a result,
managers and HRS staff did not always have appropriate data upon which to base decisions,
employee personnel and performance files were not always complete, FPPS users were not
informed of their responsibilities with respect to use of the system, and some users had
inappropriate access to sensitive information.

The Department generally concurred with our findings and recommendations. A summary of the
Department’s response follows each finding. The full text of the response is included as
Attachment 6 to this report.



Finding No. 1 –               Personnel Database Information Was Not Always Accurate
                              or Complete


The Department’s personnel database information was not always accurate or complete. We
confirmed FPPS data with a randomly selected sample of Department employees. Employees
were provided with confirmation forms that contained personnel information from 22
judgmentally selected FPPS data fields. A total of 221 employees completed and returned the
confirmations. We found that 118 employees (53.4 percent) reported a discrepancy in at least
one data field. Thirty-five employees (15.8 percent) reported discrepancies in two or more data
fields. The data fields with the highest error rates were: 1

       •   Education Level – 34.4 percent;
       •   Handicap Indicator – 10.0 percent;
       •   Last Rating of Record – 7.7 percent;
       •   Date of Last Promotion – 4.5 percent; and
       •   Race/National Origin – 4.1 percent.




1
    Attachment 1 contains a listing of all data fields confirmed and the corresponding error rates.

ED-OIG/A19-C0005                                                                                      Page 4
We also tested FPPS information to determine if the database contained valid, reasonable, and
complete information. We evaluated the contents of the 22 selected data fields for all 4,902
Department employees as of June 25, 2002. Our testing identified blank fields as follows:

   •   Education Level – 321 employees;
   •   Date of Last Promotion - 223 employees;
   •   Last Rating of Record – 2 employees; and
   •   Handicap Indicator – 1 employee.

OPM’s The Guide to Central Personal Data File Reporting Requirements, Subchapter A.3,
places responsibility for data accuracy on each agency. It states,

       Data submissions from agencies participating in CPDF represent their official
       workforce statistics. Agencies may process the data through their own systems or
       arrange for their data to be processed by another Federal agency. Regardless of
       the processing arrangement, each agency is responsible for collecting the data,
       editing it for validity, accuracy, and completeness, and furnishing the data to
       CPDF.

Subchapter A.5 provides requirements for quality control of data submitted to the CPDF. This
section states,

       Agencies are responsible for assuring that the data contained in the CPDF
       presents an accurate and complete statistical profile of their workforce. For this
       purpose, agencies must do quality control tests of the data they provide to CPDF
       from their internal personnel data systems...The major thrust of the Office of
       Personnel Management's quality control and assurance efforts is to assure that
       agencies have quality control operations in place to detect and correct incorrect
       and incomplete data before they submit the data to CPDF. The data submitted to
       the Office of Personnel Management represents an official representation of each
       Federal agency's workforce statistics. Each agency is responsible for the quality
       of its data in the CPDF and for the statistical profile of the agency that CPDF
       presents to the Office of Management and Budget, the Congress, the White
       House, and other users of the CPDF.

We found that HRS did not periodically request or encourage employees to confirm personnel
information to enhance the accuracy of the data. HRS staff reported that they did monitor some
data fields, but they did not monitor overall database information to identify incomplete data.
HRS staff also stated that supervisors focused on limited key fields, such as Social Security
Number, when reviewing initial data input for new employees, and did not review the accuracy
of all data entered.

HRS staff stated that data quality reviews were conducted by OPM on CPDF submissions, and in
the September 2002 agency rankings the Department of Education ranked second overall in data
quality among the 23 largest agencies. While we acknowledge that the Department has been
ranked among the agencies with the highest data quality by OPM, CPDF submissions do not

ED-OIG/A19-C0005                                                                   Page 5
include all FPPS data. Further, the CPDF data quality reviews only ensure that fields contain
acceptable values and do not assure that the data is accurate.

Data inaccuracies also existed because employees did not always review the personnel data that
was available to them, inform HRS of updated information (such as additional education levels
obtained), and for certain fields, did not have sufficient information to review the data. We
found that information for 19 of the 22 data fields in our audit was available for employees to
periodically review. Sources of personnel information included Leave and Earnings Statements,
the Employee Express website, annual Personnel Benefits Statements, and Notification of
Personnel Action forms. 2 However, five data fields were presented using codes that were not
defined on the documents. Three other fields – Race/National Origin, Handicap Indicator, and
Last Rating of Record – did not appear on any of the documents. As such, employees did not
have sufficient information to confirm data for 8 of the 22 elements we reviewed.

The need for accurate and timely information exists because personnel data is used for many
purposes. Agency personnel staff and managers use personnel data to make decisions about
employees, such as whether a current employee is eligible for promotion. Personnel data is also
used by agencies and OPM’s Office of Workforce Information to generate statistics that provide
a wide variety of information on the Federal workforce to the President, Congress, OPM
managers, agencies, and the public. This information is used to make policy decisions on
personnel programs that affect current and future Federal employees.

In response to the data inaccuracies identified during this audit, HRS initiated an analysis of
requirements for a process that would periodically encourage employees to review personnel
database information. This process would supply definitions of database codes used, and
provide employees with a method to refer and resolve potential inaccuracies. The proposed
process would include the 22 data fields used in this audit and 6 additional data fields identified
by HRS.

During the course of our audit, HRS staff developed and implemented a monitoring plan to
address incomplete data fields. HRS is reviewing data fields for completeness and recommends
corrective actions to Executive Offices and Human Resources personnel as needed.


Recommendations

We recommend the Assistant Secretary for Management and Chief Information Officer:
1.1 	 Develop and implement a process to improve the accuracy of data through employee
      review and confirmation. The process should periodically encourage employees to review
      personnel database information, supply definitions of database codes used, and provide
      employees with a method to refer and resolve potential inaccuracies.



2
 A complete listing of the data element values available to employees in each of these sources is presented in
Attachment 2.

ED-OIG/A19-C0005                                      	                                            Page 6
1.2 	 Continue to monitor FPPS data for completeness and take corrective actions where
      appropriate to eliminate incomplete data.

1.3 	 Ensure that data discrepancies identified by Department employees on the data
      confirmation forms provided during the audit are reviewed and appropriate corrective
      actions are taken.

Department of Education Response

The Department generally agreed with the recommendations made and provided information on
activities taken or planned to implement corrective actions.

Office of Inspector General Comments

The Department’s proposed corrective actions are generally responsive to our recommendations.
The Department stated that corrective action to recommendation 1.1 is dependent on the future
availability of funds. Specifically, the Department states this task cannot be completed through
the use of current HRS staff or contracts and concludes that additional contract support will be
needed to accomplish this task. Although the plan itself is responsive, the actual implementation
of the plan is not certain. We will monitor the timeframes and actions proposed by the
Department in the corrective action plan submitted during audit resolution.




Finding No. 2 –            Personnel Database Information Was Not Always 

                           Supported by Personnel Records 



Information contained in the FPPS database was not always supported by documentation
maintained in personnel records. We compared FPPS data to documents in the Official
Personnel Files and Employee Performance Files of 75 randomly selected employees. We made
this comparison for 19 of the 22 data elements used in the employee confirmations.3 Our sample
was limited to employees serviced by HRS staff in Washington, DC.

We found the database information for at least one field was not supported in personnel records
for 37 of 75 employees (49.3 percent). The data fields that were not supported through available
documentation were as follows: 4

             •    Last Rating of Record – 29.3 percent;
             •    Educational Level – 25.3 percent;

3
  We were unable to confirm data for the Race/National Origin and Handicap Indicator fields because
documentation related to these fields was destroyed in accordance with OPM guidance. We did not attempt to
confirm Official Mailing Address data because that information can be changed through the Employee Express
website without creating a related source document.
4
  Attachment 3 contains a listing of all data fields compared to personnel records and the corresponding error rates.

ED-OIG/A19-C0005                                      	                                              Page 7
           • 	 Annual Pay – 4.0 percent;
           • 	 Veterans’ Status – 1.3 percent; and
           • 	 Pay Plan, Grade & Step – 1.3 percent

OPM’s The Guide to Processing Personnel Actions, Subchapter 1-7.b, outlines the need for
accuracy in personnel data. It states:

       To protect the interests of the employee and the Government it is critical that
       personnel actions be documented correctly and that data on each action discussed
       in this guide is reported to the Office of Personnel Management’s Central
       Personnel Data File accurately and on a timely basis....

OPM's The Guide to Personnel Recordkeeping, Chapter 1, states,

   Agencies should have management controls to ensure that personnel records:
         • 	 Adequately document human resource management operations;
         • 	 Are accurate and timely;
         • 	 Are protected against loss or unauthorized alteration;
         • 	 Document the employment history of individuals employed by the Federal
             Government;
         • 	 Can be located when necessary; and
         • 	 Are retained and disposed of as required by General Records Schedule 1.

Chapter 3 of the guide states,

       Records are filed in the Official Personnel Folder to document events in an
       individual’s Federal employment history that have long-term consequences for
       the employee and the Government. Care should be exercised in filing documents
       correctly to ensure that all documents pertaining to an employee's rights and
       benefits are available in the personnel folder when needed.

FPPS data was not supported by documentation for several reasons. We found that information
submitted by employees was not always accurately recorded in the database. In some cases,
documentation in files that dated to the employees’ initial employment with the Department was
not always reflected in FPPS. We determined that 11 of the 19 errors identified in the Education
Level field related to information that was available upon the employee’s start with the
Department, (e.g. information on the employee’s initial application to the Department). As
previously stated in Finding 1, HRS supervisors performed only a limited review of the data
recorded when the Department initially hired an employee. Supervisors reviewed only key fields
such as an employee’s Social Security Number, not all data entered.

We also found that updated documentation submitted by employees was not always reflected in
the database. We identified eight instances where the Education Level database values did not
agree with documentation that was submitted by the employee subsequent to their initial
employment with the Department. HRS staff stated that FPPS did not require completion of
fields such as Education Level when processing actions for reassignment or promotions within

ED-OIG/A19-C0005                            	                                    Page 8
the Department. As such, data provided by the employees in applications submitted for these
positions was not reviewed for new data and FPPS data was not updated.

In addition, appropriate supporting documentation was not always included in the files. For
example, Official Personnel Files did not include the most current SF-50, “Notification of
Personnel Action,” or other information to support annual pay data in FPPS in 3 of 75 files
reviewed. We also found that 22 of 75 Employee Performance Files did not contain the Last
Rating of Record. HRS staff stated that Principal Offices did not always provide rating of record
documentation as required.

Finally, HRS staff did not conduct periodic reviews of samples of employee files to ensure that
FPPS data reflected information contained in personnel records.

As a result, some data elements used by decision makers to process personnel actions, obtain
statistics on federal employees, monitor agency compliance with government wide policies, and
make decisions on federal personnel policy were not accurate or were not supported by source
documentation. In addition, employee personnel and performance files were not complete.
Missing documentation in employee files could lead to errors or confusion when future
personnel actions are taken.

In response to the information provided during our audit, HRS staff stated that they have
expanded the supervisory review of FPPS data input, plan to conduct quality assurance reviews
that compare FPPS data with file documentation, and have started to outline requirements for an
automated tracking system to ensure that all ratings are received timely and are included in
Employee Performance Files. HRS staff stated that they are currently generating and distributing
Rating of Record submission reports on a monthly basis to reinforce the importance of providing
this information. These reports are provided to each Principal Office and the Assistant Secretary
for Management.


Recommendations

We recommend the Assistant Secretary for Management and Chief Information Officer:

2.1 	 Reinforce the requirements for and importance of recording and updating FPPS data to
      HRS and Executive Office staff responsible for this task, including providing additional
      training as needed.

2.2 	 Develop and implement periodic quality assurance reviews of samples of personnel records
      to compare FPPS data with documentation to ensure all data is accurately recorded and
      updated, and personnel and performance records are complete.

2.3 	 Develop a tracking mechanism to ensure that all ratings are provided timely by Principal
      Offices and filed in Employee Performance Files.




ED-OIG/A19-C0005                             	                                     Page 9
Department of Education Response

The Department agreed with the finding and three of the four recommendations contained in the
draft report. The Department provided information on activities taken or planned to implement
corrective actions.

The Department disagreed with the draft recommendation to:

       Ensure that updated information provided by employees, such as information provided
       with applications for reassignment or promotion, is also updated in FPPS.

The Department stated that adding additional records review requirements based on resumes or
other applications would not be efficient or effective and could lead to unsupported data updates.
The Department noted that the proposed corrective action for recommendation 1.1 would more
effectively address this condition.

Office of Inspector General Comments

The Department’s proposed corrective actions are generally responsive to our recommendations.
We considered the response provided by the Department and removed the recommendation in
question. We agree that the proposed corrective action in response to recommendation 1.1, if
effectively implemented, appears responsive to improve overall FPPS data quality. In addition,
the quality assurance reviews proposed to address recommendation 2.2 will also improve FPPS
data quality.

The Department stated in its response that a manual tracking mechanism was currently in place
to ensure that all ratings are provided timely by Principal Offices and filed in Employee
Performance Files. However, the sample tracking report provided with the Department’s
response only included ratings entered into FPPS. There was no tracking report to ensure hard
copy ratings were placed in Employee Performance Files. We determined in our audit that this
particular mechanism was not effective for ensuring that all ratings were provided and filed, as
22 of the 75 Employee Performance Files we reviewed did not contain the Last Rating of
Record. We continue to recommend that the Department develop and implement a tracking
system to ensure that all ratings are provided and filed in Employee Performance files. We will
monitor the actions proposed by the Department in the corrective action plan submitted during
audit resolution.




ED-OIG/A19-C0005                                                                  Page 10
Finding No. 3 – Controls Over Sensitive Data Needed Improvement


We determined that certain controls over sensitive data could be improved. Specifically, we
noted that rules of behavior for FPPS users had not been developed, and user access was not
effectively monitored. The interests of the Department, Office of Management, system users,
and employees could be better protected through enhancements in these areas.

Rules of Behavior Had Not Been Developed

We found that rules of behavior had not been developed for FPPS users. The Privacy Act of
1974 as amended, (5 U.S.C. 552a), § 552a(e)(9), states Agencies shall,

       [E]stablish rules of conduct for persons involved in the design, development,
       operation, or maintenance of any system of records, or in maintaining any record,
       and instruct each such person with respect to such rules and the requirements of
       this section, including any other rules and procedures adopted pursuant to this
       section and the penalties for noncompliance.

OMB Circular A-130, “Management of Federal Information Resources,” Appendix III,
§ (3)(b)(2)(a), includes as a control for major applications the establishment of rules of the
system. The circular requires that agencies:

       Establish a set of rules concerning use of and behavior within the application.
       The rules shall be as stringent as necessary to provide adequate security for the
       application and the information in it. Such rules shall clearly delineate
       responsibilities and expected behavior of all individuals with access to the
       application. In addition, the rules shall be clear about the consequences of
       behavior not consistent with the rules.

The need for rules of behavior was also identified in an FPPS risk assessment completed in June
2002. That report recommended that the Department develop written rules of behavior for FPPS
to clearly define the expected behavior of all users, including a signature page that acknowledges
receipt and understanding of behavior responsibilities and compliance with the stated rules. The
Department’s response to the report stated that corrective action would be completed as of
October 29, 2002. However, the rules of behavior had not been implemented as of July 2003.
HRS staff stated that rules of behavior had been developed, but they were awaiting the review
and approval of executive management before they could be implemented.

Since the rules of behavior had not been implemented, the potential weakness identified in the
June 2002 risk assessment still existed. That report concluded that users lacking knowledge of
required security rules might take actions that allow a direct threat to exploit the system. Users
were not informed of their responsibilities to protect sensitive data contained in the system.
Further, failure to take action to ensure that the findings of audits and other reviews are promptly

ED-OIG/A19-C0005                                                                    Page 11
resolved represents an internal control weakness as defined in the General Accounting Office
(GAO) Standards for Internal Control in the Federal Government.

FPPS User Access Was Not Effectively Monitored

We also determined that FPPS user access was not effectively monitored. With the assistance of
Department Executive Offices,5 we reviewed the need for 1,123 FPPS users as of February 25,
2003. The Executive Offices responded that access for 103 users (9.2 percent) should be deleted.

The Privacy Act, § 552a(e)(10), states Agencies shall,

        [E]stablish appropriate administrative, technical and physical safeguards to insure
        the security and confidentiality of records and to protect against any anticipated
        threats or hazards to their security or integrity which could result in substantial
        harm, embarrassment, inconvenience, or unfairness to any individual on whom
        information is maintained.

The Privacy Act, § 552a(b), also states,

        No agency shall disclose any record which is contained in a system of records by
        any means of communication to any person, or to another agency, except pursuant
        to a written request by, or with the prior written consent of, the individual to
        whom the record pertains, unless disclosure of the record would be,

        (1) to those officers and employees of the agency which maintains the record who
        have a need for the record in the performance of their duties…

Chapter 1 of OPM's The Guide to Personnel Recordkeeping states,

        Access to personnel records subject to the Privacy Act should be limited to those
        whose official duties require such access. This limitation applies to paper,
        microfiche/microfilm, and electronic records.

Monitoring of FPPS users is the responsibility of Executive Office staff within the various
Departmental organizations. Organization staff are responsible for the initial authorization of
user accounts and deleting users when access is no longer required. HRS staff performed limited
reviews of user activity by reviewing periodic reports and directly contacting users who either
did not access the system or did not do so frequently to determine if access is still required.
However, these reviews did not involve input from Executive Offices who authorize system
access for the users. Users who wanted to maintain inappropriate access could respond that they
still needed access to the system.




5
 This included Principal Offices and Independent Organizations affiliated with the Department of Education. See
Attachment 4 for a list of the organizations included in this review and the results for each organization.

ED-OIG/A19-C0005                                                                               Page 12
User monitoring in place within Departmental organizations and HRS did not effectively remove
users when access was no longer required. As a result, individuals who were no longer valid
FPPS users had inappropriate access to a system containing sensitive information.

In response to the issues identified during our audit, HRS staff stated that rules of behavior for
FPPS would be implemented. In addition, HRS staff stated that they have developed procedures
to ensure that Executive Offices periodically review and confirm the need for user accounts.
HRS staff contacted Executive Offices and reported that 88 of the 103 accounts identified in our
audit had been deleted as of July 2003.


Recommendations

We recommend that the Assistant Secretary for Management and Chief Information Officer:

3.1 	 Develop rules of behavior for FPPS users that include the use of a signature page to
      acknowledge receipt and understanding of behavior responsibilities. Ensure that all current
      FPPS users complete the developed form, and that a process is implemented to ensure all
      new users sign the forms prior to obtaining access to the system.

3.2 	 Develop FPPS user account monitoring procedures to ensure that Executive Offices
      periodically review and confirm the need for user accounts within their organization.

3.3 	 Ensure that those users identified as not needing access to FPPS are deleted.

Department of Education Response

The Department agreed with the recommendations made and provided information on activities
taken or planned to implement corrective actions.




ED-OIG/A19-C0005                             	                                    Page 13
             OBJECTIVES, SCOPE, AND METHODOLOGY


The objectives of our audit were to:

   1. 	 Assess the accuracy and completeness of selected information in the Department’s
        personnel database; and
   2. 	 Evaluate how sensitive personnel data is safeguarded.

To accomplish our objectives, we obtained an understanding of the controls in place at the
Department over FPPS data accuracy and completeness, and the safeguards over sensitive data in
FPPS and in hard copy personnel records. We reviewed applicable laws and regulations,
Department policies and procedures, GAO Standards for Internal Control in the Federal
Government, and National Institute of Standards and Technology publications. Since the FPPS
application is operated by the Department of Interior, we reviewed that agency’s policies,
procedures and reports regarding the system. We also gained an understanding of controls in
place at the Department of Education through interviews with HRS staff, observations, and
review of applicable documentation.

To perform our audit, we judgmentally selected 22 FPPS data fields to assess the accuracy and
completeness of employee data. The fields were selected based on a 1998 review conducted by
the GAO on the accuracy of the CPDF maintained by OPM. We obtained a download of the
data in these fields for the 4,902 Department employees as of June 25, 2002. To ensure the
completeness of the data received, we reconciled the employees listed in the FPPS download
with payroll records for the pay period ending June 15, 2002.

We also conducted data validity testing, confirmed data with employees, and compared data to
source documentation. See Attachment 5 for fields involved in the various data testing
performed. Based on these tests and assessments, we concluded that the data were sufficiently
reliable to be used in meeting the audit’s objectives. Details of the data testing and
confirmations follow:

   • 	 Data Validity Testing – We conducted validity testing for the universe of 4,902
       Department employees as of June 25, 2002. This process reviewed data fields for blank
       values, and reviewed certain data fields, such as date of birth and service computation
       date, for reasonableness. (See Finding 1 for discussion of results of this review.)

   • 	 Data Confirmation Survey – We confirmed FPPS data with a randomly selected sample
       of Department employees. A total of 221 employees completed confirmation forms for
       the information contained in the database as of June 25, 2002. In this review, we defined
       errors as responses from employees that indicated at least one element in the database
       was incorrect. We followed up with employees as necessary to clarify responses and to
       obtain additional information. (See Finding 1 for results of this confirmation.)

ED-OIG/A19-C0005                            	                                   Page 14
    • 	 Comparison of Database Information to Source Documentation – We compared
        database information to corresponding source documentation maintained in Official
        Personnel Folders and Employee Performance Files. To complete this review, we
        selected a random sample of 75 individuals serviced by HRS staff in Washington, DC,
        from the universe of 3,131 such employees as of June 25, 2002. In this review, we
        defined an error as a value found in the database that was not the same value identified in
        applicable source documentation, or a value that could not be supported due to the
        absence of applicable source documentation. (See Finding 2 for results of this
        comparison.)

To evaluate the appropriateness of user accounts on FPPS, we obtained a listing of all users on
the system as of February 25, 2003. We referred the list of users to Department Executive
Officers to determine if individuals with FPPS user accounts currently required system access.
We validated 1,123 of the total 1,353 user accounts as of February 25, 2003.6 We considered a
user account to be in error if an organization indicated the account was not required as of the date
the account listing was generated. (See Finding 3 for results of this analysis.)

We performed our fieldwork at applicable Department of Education offices in Washington, DC,
from April 2002 through July 2003. We held an exit conference with Department management
on July 22, 2003. Our audit was performed in accordance with generally accepted Government
Auditing Standards appropriate to the scope of the review as described above.




6
  Accounts not verified represent those assigned to the Office of Management that were not referred, and user
accounts from other organizations for which a response was not received. The total number of accounts includes
instances where an individual was cited as a FPPS user for multiple physical locations.

ED-OIG/A19-C0005                                    	                                          Page 15
             STATEMENT ON MANAGEMENT CONTROLS 


As part of our review, we assessed the system of management controls, policies, procedures, and
practices applicable to HRS’ administration of the personnel database and its related information.
Our assessment was performed to determine the level of control risk for determining the nature,
extent, and timing of our substantive tests to accomplish the audit objectives.

For the purpose of this report, we assessed and classified the significant controls into the
following categories:

   •   Accuracy and completeness of personnel data, and
   •   Safeguarding of sensitive personnel data.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed management control weaknesses that adversely affected the
accuracy and completeness of FPPS data and personnel records, and the effectiveness of the
Department’s process for safeguarding sensitive information. These weaknesses and their effects
are fully discussed in the AUDIT RESULTS section of this report.




ED-OIG/A19-C0005                                                                    Page 16
             Attachment 1: Results of Employee Data Confirmation Survey




                                                                    Percentage of Respondents
                                                                     That Identified Errors In
                                       Category                               Data

                  1    Name                                                       0.0%
                   2   Official Mailing Address                                   3.2%
                   3   Social Security Number                                      0.0%
                   4   Date of Birth                                               0.9%
                   5   Sex                                                         0.0%
                   6   Education Level                                            34.4%
                   7   Race/National Origin                                        4.1%
                   8   Handicap Indicator                                         10.0%
                   9   Veterans' Preference                                       1.8%
                  10   Veterans' Status                                           2.3%
                  11   Official Duty Station                                       0.5%
                  12   Principal Office Code                                       0.5%
                  13   Pay Plan, Grade & Step7                                    0.0%
                  14   Date of Last Promotion                                      4.1%
                  15   Annual Pay, Including Locality Pay                          0.0%
                  16   Position Title                                              0.9%
                  17   Occupational Series                                         0.5%
                  18   Service Computation Date                                    0.5%
                  19   Work Schedule                                               0.0%
                  20   Last Rating of Record                                       7.7%
                  21   Retirement Plan                                             0.9%
                  22   Annuitant Indicator                                        1.4%




7
    Pay Plan, Grade, and Step are separate data elements that were combined for ease of reference.
     Attachment 2: Sources Of Data Fields Available for Employee Review




                                   Leave and                           Personnel        Notification of
                                   Earnings           Employee          Benefits         Personnel
     Data Element                  Statement           Express         Statement           Action

1    Name                               X                 X                 X                 X
2    Official Mailing Address           X                 X                 X
3    Social Security Number8            X                 X                 X                 X
4    Date of Birth                                                          X                 X
5    Sex                                                                                      X
6    Education Level                                                                          X
7    Race National Origin
8    Handicap Indicator
9    Veterans’ Preference                                                                     X
10   Veterans’ Status                                                                         X
11   Official Duty Station                                                                    X
12   Principal Office Code                                                                    X
13   Pay Plan, Grade, & Step            X                 X                                   X
14   Date of Last Promotion                                                                   X
15   Annual Pay, Including              X                 X                                   X
     Locality Pay
16   Position Title                                                                           X
17   Occupational Series                                                                      X
18   Service Comp. Date                                   X                 X                 X
19   Work Schedule                                                                            X
20   Last Rating of Record
21   Retirement Plan                    X                 X                 X                 X
22   Annuitant Indicator                                                                      X




8
 As of January 2003, the employee’s full Social Security Number was no longer presented in the Leave and
Earnings Statement.
Attachment 3: Comparison of Database to Personnel File Documentation




                                              Percentage of Errors
                                               Between Supporting
                                           Documentation and Database
                         Category                 Information

     1    Name                                       0.0%
     2    Official Mailing Address               Not Confirmed
     3    Social Security Number                      0.0%
     4    Date of Birth                               0.0%
     5    Sex                                         0.0%
     6    Education Level                            25.3%
     7    Race/National Origin                   Not Confirmed
      8   Handicap Indicator                     Not Confirmed
     9    Veterans' Preference                       0.0%
     10   Veterans' Status                           1.3%
     11   Official Duty Station                       0.0%
     12   Principal Office Code                       0.0%
     13   Pay Plan, Grade & Step                      1.3%
     14   Date of Last Promotion                      0.0%
     15   Annual Pay, Including Locality              4.0%
     16   Position Title                              0.0%
     17   Occupational Series                         0.0%
     18   Service Computation Date                    0.0%
     19   Work Schedule                               0.0%
     20   Last Rating of Record                      29.3%
     21   Retirement Plan                             0.0%
     22   Annuitant Indicator                        0.0%
        Attachment 4: FPPS User Account Review by Organization




                                                                   Accounts Percent
                                                                   Identified Identified
                                                          Accounts    for        for
              Organization                                Reviewed Deletion Deletion

National Assessment Governing Board                           9         0        0.0%
National Commission on Libraries and Info. Sciences            4        0        0.0%
National Institute for Literacy                                4        0        0.0%
Office of English Language Acquisition                        12        3       25.0%
Office of the Chief Financial Officer                         56        9       16.1%
Office of the Chief Information Officer                       20        5       25.0%
Office for Civil Rights                                      107       15       14.0%
Office of the Deputy Secretary                                11        0        0.0%
Office of Educational Research and Improvement                31        5       16.1%
Office of Elementary and Secondary Education                  47        4        8.5%
Office of the General Counsel                                 27        0        0.0%
Office of Inspector General                                  128        0        0.0%
Office of Intergovernmental and Interagency Affairs          47         4        8.5%
Office of Legislation and Congressional Affairs                5        0        0.0%
Office of Postsecondary Education                            64        13       20.3%
Office of the Secretary                                      26         4       15.4%
Office of Safe and Drug Free Schools                          10        0        0.0%
Office of Special Education and Rehabilitative Services      103        3        2.9%
Office of the Under Secretary                                 15        0        0.0%
Office of Vocational and Adult Education                      34        6       17.6%
Federal Student Aid                                          363       32        8.8%

Total                                                       1,123      103      9.2%
         Attachment 5: Summary of Data Fields Reviewed




                                                           Comparison of
                                 Limited     Employee          Data to
                                  Data         Data        Documentation
                                 Validity   Confirmation   from Personnel
           Data Element          Testing      Survey          Records

1    Name                           *            *               *
2    Official Mailing Address       *            *
3    Social Security Number         *            *               *
4    Date of Birth                  *            *               *
5    Sex                            *            *               *
6    Education Level                *            *               *
7    Race/National Origin           *            *
8    Handicap Indicator             *            *
9    Veterans’ Preference           *            *               *
10   Veterans’ Status               *            *               *
11   Official Duty Station          *            *               *
12   Principal Office Code          *            *               *
13   Pay Plan, Grade, and Step      *            *               *
14   Date of Last Promotion         *            *               *
15   Annual Pay, Including          *            *               *
     Locality Pay
16   Position Title                 *            *               *
17   Occupational Series            *            *               *
18   Service Computation Date       *            *               *
19   Work Schedule                  *            *               *
20   Last Rating of Record          *            *               *
21   Retirement Plan                *            *               *
22   Annuitant Indicator            *            *               *
                                                                                                              Attachment 6

                                  UNITED STATES DEPARTMENT OF EDUCATION

                                                       omCE OF MANAGEMENT


                                                            OCT
TO:                Michele Weaver-Dugan, Director
                   Operations Internal Audit Team
                   Office of the Inspector General

FROM:              William J. Leidinge(  \ \}--­
                   Assistant Secretary WanagementlChief
                   Infomlation Officer

SUBJECT:           Response to Draft Audit Report
                   Audit of the Accuracy and Completeness of Personnel Data
                   Control Number ED-OIGI A 19-C0005


I appreciate the opportunity to respond to the draft audit report on the accuracy and completeness
of personnel data (reference your lett er of August 12,2003). In general, we concur with the
findings and the majority of the recommendati ons contained in the report. However, at times the
report overstates the impact and importance of so me of the data errors. While 100 percent
accuracy and comp leteness of personnel data is desirable, limitations on resources make it more
appropriate to focu s our corrective efforts where th ey are most needed, versus on those areas
havin g little or no impact on the employment of individual s or the Department 's management of
human capita l. For examp le, once an individual is hired, education levels are not used for
anything other than demographic information ; these errors and omi ssions have very limited
impact. On th e other hand, missing ratings of record cou ld have serious consequences, should
the Department need to take a perfomlance-based acti on or run a reduction -in-force .

Even though we occasionall y disagree with the report's emphasis, we appreciate the intent of the
audit to assist the Department in better managing its human capital. A discussion of the
individual findings and recommendations contained in th e draft report follows.

Finding No.1 	               Personnel Database Information Was Not Always Accurate or
                             Complete

We concur with the finding and recommendations.

1.1 	     "Develop and implement a process to improve the accuracy of data through employee
          review and confirmation. The process should periodically encourage employees to
          review personnel database information, supply definitions of database codes used, and
          provide employees with a method to refer and resolve potential inaccuracies."


                                  400 MARYLAND AVE., SW. WASHINGTON. O.c. 20202-4500
                                                          www.cd .gov
        Our mission is 10 ensure equol access 10 education (lnd 10 promote educarional excellence ,hrougholltlhe Nation.
Page 2 - Michelle Weaver-Dugan

        Corrective Action: Contingent on the availability of funds for contractor support, the
        Office o f Mana gement (OM), Human Resources Serv ices (HRS), will institute a biennial
        employee review of se lected data elements to be cont ained in a single brief clear-text
        report produced fTOm th e FPPS system . The report will be deli vered via e- mail or a web­
        enabled rev iew process. Employees will review data, input changes they believe to be
        accurate and submit those rev isions for rev iew by contractor personnel or HRS
        specia li sts, as appropriate. After resolution , contractor personnel will update the
        personnel dat abase accordingly. This process will survey every employee in the
        Department once every two years.

        Changes or correction s indicated to handi cap/di sability conditi on or race and national
        origin data will be referred by th e contractor to OMfManagement Services, EEO Group,
        for appropriate action and integration into the Department 's annual report ing of such data
        to the Equal Employmen t Opportunity Commi ssion.

        Note that thi s data veri fi cati on survey effort will involve significant resources.
        Furthermore, OM is awaiting the outcome of the competiti ve sourcing process th at wi ll
        dramati cally affect the availability ofHRS manpower. Future HRS staff or contractors in
        place after the Hum an Resources competitive sourcing decision is made will not be able
        to take on thi s add itional task. It is beyond the scope of th e Human Resources Statement
        of Work (SOW), and neither government nor contractor serv ice providers will have the
        Oexib ility to add thi s work load without additional resources. The current staff and
        contract support in the HRS Systems Team is also not sufficient to accompli sh this task.

        The on ly practical so luti on to accomplish thi s ongoing and ex tensive review process is
        with contract support. We will have to look into funding this project and amending the
        SOW for the Human Resources Informati on Managemen t Systems support when it
        comes up for renewal in April 2004.

1.2 	   " Continue to monitor rrrs data for completeness and take corrective actions where 

        appropriate to eliminate incompl ete data." 


        Corrective Action: 1 Source Consulting (l -SC) and the HRS Systems Team developed
        and instituted monthly procedures to monit or FPPS data for completeness. The results of
        these procedures are automated reports, id entifyin g where corrective actions are needed ,
        that are sent to Executi ve Officers and OMfHRS Team Leaders. The following data
        elements are monitored: Education Level, RacefNati onal Origin, Hand icap Indi cator, Last
        Rating of Record, Date of Last Promotion, Competitive Level Code, Special Program ID
        and vacancy.

1.3     "Ensure that data di screpancies id entified by Department employees on the data 

        confinnation forms provided during the audit are reviewed and appropriate corrective 

        actions are taken ."

        Corrective Action: OMfHRS is reviewing and correcting discrepancies identifi ed by
        Department emp loyees on the data confinnati on fonns.
Page 3 - Mi chell e Weaver-Du gan

Finding No.2 	         Personnel Database Information Was Not Always Supported by
                       Personnel Records

We concur with the findin g and all recommend ations except for recommend ation 2.2. See
di scussion, below.

2. 1    " Reinforce the requirements for and importance of recordin g and upd atin g FPPS data to
        HRS and Executive Offi ce staff responsible for thi s task, including providing additi onal
        training, as needed."

        Corrective Action: OMIHRS will continu e to generate reports and take acti ons to
        reinforce the import ance of recording and updating FPPS to HRS and Executi ve Office
        staff. Fo r exampl e, to dea l with ratings of record, durin g th e end of the rating cyc le
        OMIHR S generates a Rating of Record data accuracy report, by Principal Offi ce (PO),
        and provides thi s infornl ati on to th e Director, HRS, and the Empl oyee Relations Team
        Leader. These two key offi cials take appropri ate acti on to ensure staff within HRS and
        Executi ve Offi ces are aware of th eir respon sibiliti es with regard to EDPAS ratings. Our
        response to recommend ati on 1.2 of thi s document further cl arifies OM 's correcti ve
        action s for thi s recomm endati on. OMIHRS reinforces the requirements for and
        import ance of recordin g and upd ating FPPS data to internal and Executive Offi ce staff
        and provides training, as needed. For ex ample, see the chart that was provid ed to
        Executi ve Offi cers and th e EMT regarding ratin gs on fil e in the FFPS system
        (A tt aclunent I). OM/HRS also sent an e-mail remind er to Executive Offi cers about
        forwa rdin g hardcopy performance pl ans and rating doc um ent s to HRS for filin g in the
        Employee Perfonn ance Fold er (EPF) (Att.achment 2)

2.2 	   "Ensure that updated informati on prov ided by empl oyees, such as inform ation provided
        with appli cati ons for reassignment or promotion, is also updated in FPPS"

        \Ve disagree with this recommendation. Adding additi onal records revi ew
        requirements on th e staffin g teams to update empl oyee records based solely on EdHires
        resum es or other applicati ons would not be effi cient or effecti ve. Since additional
        document ation is often needed to update data in the system, thi s wo uld slow the work of
        the staffin g teams or would lead to un supported data upd ates. The corrective acti on
        proposed for recomm end ati on 1.1 will address the probl em more effectively.

2.3 	   " Develop and implement periodic quality assurance reviews of samples of personnel
        records to compare FPPS data with documentation to ensure all data is accurately
        recorded and upd ated, and personnel and perform ance records are complete."

        Corrective Action: OPF contractor will conduct semi-annual quality assurance revi ews
        utilizing sampl es of personn el records to compare FPPS data with docum ent ation to
        ensure all data is accurately recorded/ updated and records are compl ete. An addendum
        will be added to the SOW for the Offi cial Personnel Record s Management Contract the
        nex t tim e it comes up for renewal in March 2004.
.. 

   Page 4 - Michelle Weaver-Dugan

   2.4 	   "Develop a tracking mechanism to ensure that all ratings are provided timely by Principal
           Offices and filed in Employee Performance Files."

           Corrective Action: There is currently a manual tracking mechanism in place to ensure
           that all ratings are provided timely by Principal Offices (Pos) and filed in Employee
           Performance Files.

   Finding No.3           Controls Over Sensitive Data Needed Improvement

   We concur with the finding and recommendations.

   3.1 	   "Develop rules of behavior for FPPS users that include the use of a signature page to
           acknowledge and understanding of behavior responsibilities. Ensure that all current
           FPPS users complete the developed form, and that a process is implemented to ensure all
           new users sign the forms prior to obtaining access to the system"

           Corrective Action: Rules of behavior for FPPS users, including a signature page has
           been developed and will be reviewed by the Director, HRS, before implementation with
           current FPPS users. A process will be implemented to ensure all new users sign the non­
           disclosure form prior to obtaining access to FPPS.

   3.2 	   "Develop FPPS user account monitoring procedures to ensure that Executive Offices
           periodically review and confinn the need for user accounts within their organization."

           Corrective Action: Procedures have been developed to ensure that Executive Offices
           periodically review and confirm the need for user accounts within their organi zation.
           During the month of July, 50 user accounts were identified and deleted. At this time there
           are no user accounts that require deletion.

   3.3 	   "Ensure that those users identified as not needing access to FPPS are deleted."

           Corrective Action: The 103 FPPS user accounts identified in Attachment 4 of the draft
           audit report have been deleted. At this time there are no additional user accounts that
           require deletion.


   Attachments
                                                                                                                                                                                                                                 "

~
a;
g.
3
                       PO Usage of Performance Appraisal System                                                                                                                                                                       '.

co
:?
~
                                         1/1 /03 - 4130103 Rating Cycle All POs - Preliminary Data
                   This chart identifies the percentage of ED PAS employees who have received a rating of record of "Outstanding", " Highly 

                   Successful" "Successful", " Minimally Successful", or "Unacceptable" by PO. This is a metric contained in Objective 6.2. 


                             100                                                                        91l                         98    22.                        M                   Qfi         u<




                                                   80
                                  )(iI   I   1_
     ."
          ...
          0
          <.J

      '"
     IX
     '­
      0
          '"
          OJ)

         ~
          =
     IX  '"
     ­
     -=
          ~
         '""
         ....
         '"
     .£
          Q,
         5
     ~
 '­
  0
          '"
         OJ)

     ~
         '="                             I -       I I   0

         .,...'"                                                                                                         «                ...                                   ...Cl                «
                                                               c<                                                                   «
                                                                                                                                                       ...0«
                                              Cl                                    0                   til     0                         0     ::;:                                           OJ                 Ul

                                                                                              8
                                                         til            til                                                                                          OJ                  til
         <.J
                                                   (:3                  ::>                                                                                          c.
                                                                                                                                                                                til
                                                                                                                                                                                                            is    «
 c..
                                              Ul         Cl
                                                         0     ~        0           is                  '"
                                                                                                        Ul
                                                                                                        til
                                                                                                        0
                                                                                                                ~
                                                                                                                        u
                                                                                                                        ...l
                                                                                                                        0
                                                                                                                                    is    ~
                                                                                                                                                0      til
                                                                                                                                                                     0
                                                                                                                                                                                til
                                                                                                                                                                                0
                                                                                                                                                                                         !!l   til
                                                                                                                                                                                               OJ
                                                                                                                                                                                               0
                                                                                                                                                                                                     ...l
                                                                                                                                                                                                     Ul
                                                                                                                                                                                                     0
                                                                                                                                                                                                                  >
                                                                                                                                                                                                                  0

 Employees
 EligIble to l 4.20 I                        113   90    661    37            266        98       332         104   19         93        274    179        1.050          231           45     171   195     42       87   114
    be rated
 Employees                   3 77
                   rated l    •     I        90    0     590        0         249        90       325         95    6          92        272    169            983        219           32     165   179     40       68   107


Data Source: Federal Personnel Payroll System (FPPS) R eport BR02339_Status_ v6 as 0/912712003. Excludes pay plans ED, EF, EH, EI, ES, EX, ZZ; excludes employees
                                                       with <1=120 on the j ob /orrating date equal to 4130103.
